WAIVER

Supreme Court of the United States

No. 20-5364
John S, Kaminski Vv. Scott Semple, Commissioner,
Connecticut Department of Correction, et
al.
(Petitioner) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
O Please enter my appearance as Counsel of Record for all respondents.

é There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

hth Baasly JE

 

 

‘1 am a member of the Bar of the Supreme Court of the United States.

0 lam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a r member.
Signature

Date: q- g: AoQo
(Type or print) Name. Ld |der oe L

OM, OMs. CO Mrs. O Miss
Firm Wanslay favs LUE

address Y [dest (Vein Shoo}

City & State Mush, res il Tip OC 355
phone (S60) Yb -5/80

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Joha § Kaminski er RD

 

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
